U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

October 22, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Robert Banks III v. United States, No. 20-5074
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on July 10, 2020.
The government’s response was due, after one extension, on October 21, 2020. We respectfully
request, under Rule 30.4 of the Rules of this Court, a further extension of time to and including
November 30, 2020, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Because of an oversight, this extension request is being filed one day late. We have
informed petitioner’s counsel of the oversight, and she has consented to the late extension
request. She has also stated that she does not oppose this further extension.
Sincerely,

Jeffrey B. Wall
Acting Solicitor General
cc:

See Attached Service List

20-5074
BANKS, ROBERT
USA

MARTHA M. HALL
964 FIFTH AVENUE
SUITE 214
SAN DIEGO, CA 92101
619-544-1451
MARTHA_DIIORIOHALL@YAHOO. COM
619-544-1473(Fax)
LAUREN ROSENBERG
CRAVATH SWAINE & MOORE LLP
825 EIGHTH AVENUE
NEW YORK, NY 10019
212-474-1159
LROSENBERG@CRAVATH.COM
ANTONY L. RYAN
CRAVATH, SWAINE & MOORE
WORLDWIDE PLAZA
825 EIGHTH AVENUE
NEW YORK, NY 10019-7475
212-474-1000
ARYAN@CRAVATH.COM

